No. _______

In The

Supreme Court of the United States
GENERAL ELECTRIC COMPANY,
Applicant,
V.
UNITED TECHNOLOGIES CORPORATION,
Respondent.

APPLICATION DIRECTED TO THE HONORABLE JOHN G. ROBERTS, JR.
FOR AN EXTENSION OF TIME TO FILE PETITION FOR WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS FOR THE FEDERAL CIRCUIT

CERTIFICATE OF SERVICE
I, Gregory G. Garre, a member of the Bar of this Court, hereby certify that on
December 31, 2019, I caused copies of this Application Directed to the Honorable
John G. Roberts, Jr. for an Extension of Time to File Petition for Writ of Certiorari
in the above-captioned case to be mailed, first-class postage prepaid, to:
Patrick J. Coyne
Finnegan, Henderson, Farabow, Garrett & Dunner, LLP
901 New York Avenue, NW
Washington, DC 20001
(202) 408-4470
patrick.coyne@finnegan.com
Counsel for Respondent

Additionally, in accordance with Supreme Court Rule 29.3, an electronic
version of the Application Directed to the Honorable John G. Roberts, Jr. for an
Extension of Time to File Petition for Writ of Certiorari was transmitted to counsel
for Respondent at the email address indicated above.
I further certify that all parties required to be served have been served.

By~~-~
Gregory G. Garre

LATHAM & WATKINS

LLP

555 11th Street, NW
Suite 1000
Washington, DC 20004
(202) 637-2207
gregory .garre@lw.com

Counsel for Applicant
General Electric Company

2

